                        UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF INSPECTOR GENERAL

                                                                                                          Audit Services
                                                                                                     Dallas Audit Region


                                                September 28, 2007

                                                                                                  Control Number
                                                                                                ED-OIG/A06H0010

Mr. Jonathan W. Bullen
President
Eagle Gate College
299 South Main Street, Suite 2420
Salt Lake City, Utah 84111

Dear Mr. Bullen:

This Final Audit Report, entitled Eagle Gate College’s Administration of Title IV Student
Financial Assistance Programs, presents the results of our audit. The purpose of the audit was
to determine whether Eagle Gate College administered the Title IV programs in accordance with
selected requirements of the Higher Education Act of 1965, as amended (HEA). Specifically we
evaluated the school’s compliance with requirements for (1) incentive compensation, (2) return
of Title IV funds, (3) institution and student eligibility, and (4) disbursements. Our audit
covered the period July 1, 2005, through June 30, 2006.




                                               BACKGROUND



Eagle Gate College (Eagle Gate) is a proprietary school located in Utah and has locations in the
cities of Salt Lake City, Murray, and Layton. The school was founded in 1979 as the
Intermountain College of Court Reporting. In July 2001, Bullen and Wilson, LLC, acquired the
school and changed its name to Eagle Gate College. The Accrediting Council for Independent
Colleges and Schools accredits Eagle Gate. The college offers career and technical training
programs leading to certificates, diplomas, and associate degrees.

For the 2005-2006 Award Year (July 1, 2005, through June 30, 2006), Eagle Gate received
$8,612,991 in Federal funds for the following Title IV programs:

   •    Federal Pell Grant (Pell) Program - $1,952,841
   •    Federal Supplemental Educational Opportunity Grant Program - $79,800
   •    Federal Family Education Loan (FFEL) Program - $6,561,440
   •    Federal Work Study Program - $18,910



   The Department of Education’s mission is to promote student achievement and preparation for global competitiveness by
                               fostering educational excellence and ensuring equal access.
Final Report
ED-OIG/A06H0010                                                                       Page 2 of 8


The U.S. Department of Education (Department) required Eagle Gate to post a letter of credit
because late refunds were identified in its independent public accountant’s report. The existing
letter of credit in the amount of $35,847 expires on June 30, 2008.

Eagle Gate contracts with a third-party servicer to provide financial aid services, such as
determining student eligibility for Title IV student financial aid, reviewing submitted academic
information to ensure program eligibility, performing the Return of Title IV calculation, and
transferring daily electronic applications and corrections to the Department’s Central Processing
System on behalf of Eagle Gate. Although the third-party servicer provides financial aid
services, Eagle Gate remains responsible for its compliance with all Title IV, HEA requirements.




                                     AUDIT RESULTS



Eagle Gate generally complied with HEA requirements governing incentive compensation,
institution and student eligibility, and disbursements. Based on the evidence reviewed, Eagle
Gate had internal controls to ensure proper verification documentation, award calculations, and
timing of Title IV disbursements. However, Eagle Gate’s calculations for the Return of Title IV
funds were not always performed accurately and timely.

In response to our draft report, Eagle Gate acknowledged that it made some mistakes in the
Return of Title IV Funds calculations, but did not concur with some of our calculations. Based
on our review of additional information provided by Eagle Gate, we have modified our findings
and recommendations. Eagle Gate’s comments are summarized at the end of the finding, and the
text of the comments is included as an attachment to the report. Because the exhibits referenced
in the comments are voluminous and contain student information, we have not included them in
the attachment (copies of Eagle Gate’s comments, with student information deleted, are available
upon request).

Finding No. 1 – Inaccurate Calculations for Return of Title IV Funds

To test the Return of Title IV calculations performed by Eagle Gate’s servicer, we initially
selected and reviewed the calculation records for a random sample of 25 students who withdrew,
dropped, or were terminated. We found five exceptions for five students. In five cases, the total
amount of the Return of Title IV funds calculated by the servicer was different than our
calculation.

To further test Eagle Gate’s compliance with Return of Title IV requirements, we selected an
additional sample of 25 students who withdrew, dropped, or were terminated during the period
April 1, 2006, through June 30, 2006 (the last quarter of our audit period). We found three
exceptions for three students. In two cases, the total amount we calculated differed from the
Final Report
ED-OIG/A06H0010                                                                               Page 3 of 8
amount calculated by Eagle Gate’s servicer. In the other case, we agreed with the servicer’s
calculation of the total amount, but our calculation of the amounts for which the school and the
student were responsible differed.

In our two samples, combined, Eagle Gate’s servicer made 8 inaccurate calculations. The range
of amounts owed for Return of Title IV was from $47.20 to $1,094.63.

Pursuant to 34 C.F.R. § 668.22(e)(1)1—

           The amount of title IV grant or loan assistance that is earned by the student is
           calculated by—
                   (i) Determining the percentage of title IV grant or loan assistance that has
           been earned by the student . . . ; and
                   (ii) Applying this percentage to the total amount of title IV grant or loan
           assistance that was disbursed . . . to the student, or on the student’s behalf, for the
           payment period or period of enrollment as of the student’s withdrawal date.

In most cases, the total amounts calculated by the servicer were incorrect because they excluded
Pell disbursements from the Return of Title IV calculations or used an incorrect amount of other
Title IV funds that were or could have been disbursed. For the inaccurate calculations in our
samples, Eagle Gate owes $2,630 to the Department and to FFEL Program lenders.

Recommendations

We recommend that the Chief Operating Officer of FSA require Eagle Gate College to—

1.1	       Return $2,630 of Title IV funds owed to the Department and to FFEL Program lenders.

1.2	       Recalculate all Return of Title IV calculations for students who withdrew, dropped, or
           terminated from July 1, 2003, to the present and return any Title IV funds owed to the
           Department or FFEL Program lender, as appropriate.

1.3	       Strengthen its policies and procedures, including appropriate oversight over the functions
           performed by its servicer, to ensure that Return of Title IV calculations are performed
           accurately.

Eagle Gate Comments

Eagle Gate disagreed with 7 of the 12 calculations for Return of Title IV Funds that we
identified as inaccurate in our draft audit report. Eagle Gate noted that it did not utilize a third-
party servicer prior to July 1, 2005, and believes that a requirement to recalculate all Return of
Title IV calculations after July 1, 2003, would be an undue burden.



1
    C.F.R. citations in this report are from the July 1, 2005, edition.
Final Report
ED-OIG/A06H0010                                                                          Page 4 of 8
Eagle Gate stated that it has strengthened its policies and procedures and will work with its third-
party servicer, which has assigned a senior analyst to the College to ensure the accuracy of all
refund calculations. Eagle Gate will examine the results of all refund calculations upon receipt,
in order to verify their accuracy, and will return excess funds owed to the Department and to
FFEL Program lenders as required.

OIG Response

After reviewing additional support documentation from Eagle Gate, we found that four of the
seven original calculations that Eagle Gate disputed were calculated correctly by Eagle Gate;
however, we did not agree with Eagle Gate’s calculations for the remaining three students. We
concluded that Eagle Gate had a total of eight inaccurate Return of Title IV Funds calculations,
and we revised our finding and recommendation accordingly. We do not agree that recalculating
Return of Title IV calculations from July 1, 2003, is an undue burden. The recalculations are
necessary for the integrity of the Title IV program.

Finding No. 2 – Untimely Returns of Title IV Funds

To test Return of Title IV funds, we also reviewed documentation for the timeliness of the return
of the funds to the Department and to FFEL Program lenders. For the samples of students we
used, in Finding No. 1, to test the Return of Title IV calculations, Eagle Gate made 43 Returns of
Title IV funds to either the Department or the lenders. We found that 16 of these 43 returns were
made more than 30 days after Eagle Gate determined that the student withdrew. The range of
these late returns was from 32 days to 66 days after Eagle Gate’s determination.

According to 34 C.F.R. § 668.22(j)(1), “[a]n institution must return the amount of title IV funds
for which it is responsible . . . no later than 30 days after the date of the institution’s
determination that the student withdrew . . . .” Pursuant to 34 C.F.R. § 668.173(b)(1), “an
institution returns unearned title IV, HEA funds timely if . . . [t]he institution deposits or
transfers the funds into the bank account it maintains under §668.163 no later than 30 days after
the date it determines that the student withdrew . . . .”

To comply with refund reserve standards provided in 34 C.F.R. § 668.173(a)(3), the College
must return funds in a timely manner. Under 34 § C.F.R. 668.173(c)(1)(i)—

       An institution does not comply with the reserve standard under §668.173(a)(3) if,
       in a compliance audit conducted . . . by the Office of the Inspector General . . . the
       auditor or reviewer finds . . . [i]n the sample of student records audited or
       reviewed that the institution did not return unearned title IV, HEA program funds
       within the timeframes described in paragraph (b) of this section for 5% or more of
       the students in the sample.

If an institution does not meet this compliance threshold for either of its two most recently
completed fiscal years, it must submit an irrevocable letter of credit to the Department as
described in 34 C.F.R. § 668.173(d). Because Eagle Gate exceeded the 30-day limit for about 37
Final Report
ED-OIG/A06H0010                                                                        Page 5 of 8
percent of the students in our samples for whom a return of unearned Title IV, HEA program
funds was due during the 2005-2006 award year, it may have also exceeded the compliance
threshold for its corresponding fiscal year.

Eagle Gate’s servicer calculates the amounts of the Return of Title IV funds and is required to
provide those calculations to Eagle Gate within 10 business days after the date it receives a
Change-in-Status (CIS) packet. We analyzed and tracked the dates that Eagle Gate sent the CIS
packets to the servicer to calculate the Return of Title IV funds. For the 43 Returns of Title IV
funds we reviewed, the servicer met the 10-day criteria specified in its contract agreement.

Although Eagle Gate officials were aware of the 30-day requirement in 34 C.F.R. § 668.22(j),
Eagle Gate did not process timely the Returns of Title IV after it received the calculations from
the servicer. As a result, students paid more interest on their unsubsidized loans, and the
government paid more special allowance and interest on the subsidized loans.

Recommendations

We recommend that the Chief Operating Officer of FSA require Eagle Gate College to—

2.1	   Identify all late Returns of Title IV funds made to students from July 1, 2003, to the
       present, including the 16 untimely returns in our samples, and calculate and pay to the
       Department and FFEL Program lenders, as appropriate, the imputed interest and special
       allowance costs.

2.2	   Strengthen its policies and procedures to ensure the Return of Title IV funds are remitted
       timely.

We also recommend that the Chief Operating Officer of FSA—

2.3	   Review Eagle Gate’s existing letter of credit for adequacy and require Eagle Gate to
       supplement that letter, as appropriate, or require Eagle Gate to provide documentation
       showing that, for each of the two most recent fiscal years, it returned unearned Title IV,
       HEA program funds within the timeframes described in 34 C.F.R. § 668.173(b) for more
       than 95 percent of its students eligible for such a return of funds.

Eagle Gate Comments

Eagle Gate concurred with the schedule of findings with the exception of three students. It
stated that, upon discovery, Eagle Gate previously self-reported this deficiency to Case
Management, and it has actively worked towards resolution with the Department. The College
was required by Case Management to review 100% of the unearned refunds for the 2005
calendar year and has already submitted an irrevocable letter of credit.
Final Report
ED-OIG/A06H0010                                                                        Page 6 of 8
Eagle Gate made the conversion to a third-party servicer in the wake of Hurricane Katrina and
experienced unfamiliar changes in internal procedures in adapting to this conversion. Eagle Gate
attributes the errors we identified to an isolated period, and believes that it would be an undue
burden to identify all returns made to students from July 1, 2003 to present. For the 2006
calendar year, Eagle Gate’s independent public accountant report confirmed that Eagle Gate was
in compliance.

OIG Response

After reviewing additional support documentation provided by Eagle Gate on the untimely
Returns of Title IV Funds, we have not changed our finding. The support documentation
provided by Eagle Gate identified a Return of Title IV funds but did not show the specific
amount attributed to our sample students; therefore, we can not be certain that the correct refund
was made. Most of the late refunds we identified were made in December 2005 through June
2006 and thus do not appear to be attributable to an isolated period.




                  OBJECTIVES, SCOPE, AND METHODOLOGY



The purpose of the audit was to determine whether Eagle Gate administered the Title IV
programs in accordance with selected requirements of the HEA. Specifically we evaluated the
school’s compliance with requirements for (1) incentive compensation, (2) return of Title IV
funds, (3) institution and student eligibility, and (4) disbursements. Our audit covered the period
July 1, 2005, through June 30, 2006.

To accomplish our objectives, we—

   •	 Reviewed provisions in the HEA, regulations, and Departmental guidance applicable to
      our audit’s objective;
   •	 Reviewed Eagle Gate’s audited financial statements and Compliance Attestation
      Examination of the Title IV Student Financial Assistance Programs for the fiscal year
      ending June 30, 2006;
   •	 Interviewed Eagle Gate officials;
   •	 Obtained an understanding of Eagle Gate’s policies and procedures regarding incentive
      compensation, Return of Title IV, enrollment, and disbursements; and
   •	 Reviewed Eagle Gate’s bank statements from our audit period.

We randomly selected 25 student files from a universe of 1,299 Title IV recipients and reviewed
them to determine if eligibility and disbursement requirements were met. To test Eagle Gate’s
compliance with incentive compensation requirements (in 34 C.F.R. § 668.14(b)(22)), we
selected a random sample of seven employees and reviewed their records for two randomly-
selected pay periods.
Final Report
ED-OIG/A06H0010                                                                       Page 7 of 8
The samples for our tests of Return of Title IV calculations were taken from two separate
universes. We requested from Eagle Gate a list of students who withdrew, dropped, or were
terminated from the school—

   •	 During the 2005-2006 Award Year (July 1, 2005, through June 30, 2006). The total
      universe was 466 students. We reviewed files for 25 students randomly selected from
      this universe to determine whether the school complied with requirements for Return of
      Title IV funds.

   •	 From April 1, 2006, through June 30, 2006. The total universe was 125 students. We
      reviewed files for 25 students randomly selected from this universe to determine whether
      the school complied with requirements for Return of Title IV funds.

We relied upon the computerized student roster lists provided by Eagle Gate officials to select
our Return of Title IV sample. In addition, we relied on computerized information from the
National Student Loan Data System (NSLDS) to select our student eligibility and disbursement
sample. We tested the student lists for accuracy and completeness by comparing selected source
records to the student lists. Based on these tests, we concluded that the student lists and NSLDS
information were sufficiently reliable for the purpose of our audit.

We conducted an assessment of internal controls, policies, procedures, and practices applicable
to Eagle Gate’s administration of Title IV funds. Our testing did not identify significant
weaknesses; however we did identify weaknesses that needed to be addressed. These
weaknesses are discussed in the AUDIT RESULTS section of this report.

We conducted our fieldwork at the Eagle Gate College campus in Salt Lake City, Utah, from
March 19 – 30, 2007, and April 30 – May 4, 2007. We held an exit conference with Eagle Gate
officials on July 10, 2007.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:
Final Report
ED-OIG/A06H0010                                                                        Page 8 of 8


                              Lawrence A. Warder
                              Acting Chief Operating Officer
                              Federal Student Aid
                              U. S. Department of Education
                              Union Center Plaza
                              830 First Street, NE, Room 112G1
                              Washington, DC 20202

It is the policy if the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

                                             Sincerely,


                                             /s/
                                             Sherri L. Demmel
                                             Regional Inspector General
                                               for Audit

Attachment
                                                                                                Attachment




August 30, 2007

Sherri Demmel
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
1999 Bryan Street, Suite 1440
Dallas, Texas 75201-6817

Re: Draft Audit Report, entitled Eagle Gate College’s Administration of Title IV Student Financial
Assistance Programs, Control Number ED-OIG A06H0010.

Dear Ms. Demmel:

This letter constitutes our response to the Draft Audit Report dated August 2, 2007 and provides our
comments on the findings and recommendations contained in the OIG draft report. The purpose of the
audit was to evaluate the school’s compliance with requirements for (1) incentive compensation, (2)
return of Title IV funds, (3) institutional and student eligibility, and (4) disbursements.

As a result of the audit, the OIG noted that, “Eagle Gate generally complied with HEA requirements
governing incentive compensation, institution and student eligibility, and disbursements. Based on the
evidence reviewed, Eagle Gate had internal controls to ensure proper verification documentation,
award calculations, and timing of Title IV disbursements. However, Eagle Gate’s calculations for the
Return of Title IV funds were not always performed accurately and timely.”

The Report later states, “Our testing did not identify significant weaknesses; however we did identify
weaknesses that needed to be addressed.” We will address the cited weaknesses in our response below as
to each of the two findings documented in the Audit Results. The College strives to ensure that all
policies and procedures are administered in accordance with the Title IV requirements of the Higher
Education Act of 1965, as amended (HEA).

We look forward to the conclusion of this matter and extend our appreciation to the OIG for respectfully
working through this investigation over the last six months. We are pleased to acknowledge that there are
no material weaknesses in the administrative capability of the College and have worked closely with the
Department of Education in resolving any concerns surrounding the Return of Title IV funds. The
College is also committed to perfecting the relationship it has with a third-party servicer and will always
look for new and improved ways to enhance the efficiency and compliance of its operations.

We extend our appreciation and look forward to a continued positive working relationship.

Sincerely,

  /s/

Jonathan W. Bullen
CEO & President



                                           CAMPUS RESOURCE CENTER
                               405 South Main Street, STE 330  Salt Lake City, Utah 84111
                           Phone: 801.333.7120  Fax: 801.596.2021  www.eaglegatecollege.edu
                                                                                                 Attachment
     Eagle Gate College                                                    Draft Audit Report ED-OIG A06H0010


I.       Finding No. 1 – Inaccurate Calculations for Return of Title IV Funds

             a.	 Comments in regards to Finding No. 1.

                      i.	 The College acknowledges that some mistakes were made in the Return of Title IV
                          Funds calculations due to human error, but does not concur with some of the results
                          from the OIG as provided in the following list below.

                             1.	 Disagree – EDITED. Pell grant was disbursed to the student in the amount
                                 of $135 prior to the term start. Although, when the student did not attend
                                 beyond the first add/drop week, the reconciliation data record which is sent
                                 to the servicer after the first week of school showed the student as not
                                 attending courses. The servicer posted a negative disbursement in the
                                 amount of $135 on the Check Posting Report dated 5/10/06. Therefore,
                                 when the R2T4 calculation was completed on 5/22/06, the $135 was included
                                 as aid that could have been disbursed to acknowledge the student eligibility,
                                 but was not included as aid disbursed due to the add/drop computer
                                 disbursement procedures. Negative disbursements by the servicer are later
                                 imported automatically to the College ledger card to reflect accurate
                                 disbursement data on the student account. This amount of $135 reflects the
                                 difference between the two calculations. The servicer showed a lower
                                 amount of unearned liability because the refund of $135 had already been
                                 processed. Please refer to Exhibit 1.1.

                             2.	 Agree – EDITED A Pell grant disbursement of $600 was accidentally
                                 excluded from the refund calculation as aid disbursed. While this did not
                                 result in any additional liabilities for the school to return, it would have
                                 caused the student to owe an additional $467.40 in unearned funds to the
                                 Department of Ed. Please refer to Exhibit 1.2.

                             3.	 Agree – EDITED The student dropped and re-entered causing billing
                                 adjustments which confused the student start date due to their no show
                                 record. The analyst who processed the refund calculation accidentally
                                 perceived the $1575 and -$1575 to reflect a net zero tuition. When excluding
                                 this tuition from the refund calculation, it reduced the amount due from
                                 school. Please refer to Exhibit 1.3.

                             4.	 Agree – EDITED The servicer excluded 9 days for the Christmas holiday in
                                 the calculation while the OIG excluded 10 days. This caused a .1%
                                 difference in the calculation resulting in the school refunding $3.44 more
                                 than needed. Please refer to Exhibit 1.4.

                             5.	 Disagree – EDITED. The OIG did not include any Stafford loans as aid that
                                 could have been disbursed. The student loans were certified on 7/7/05 and
                                 the student’s last date of attendance was 8/1/05. The student was eligible for
                                 a higher amount of earned Pell grant funds than reflected in the OIG
                                 calculation. Please refer to Exhibit 1.5.




                                                                                                      Page 2 of 6
                                                                                        Attachm
                                                                                        Attachmeent
Eagle Gate College                                                 Draft Audit Report ED-OIG A06H0010


                     6.	 Neutral – EDITED. The College agrees that the original calculation was
                         incorrect due to the exclusion of any days for vacation. Although, this error
                         was corrected and a revised refund calculation was completed on 2/27/06.
                         The institution refunded more unearned funds than was required. Please
                         refer to Exhibit 1.6.

                     7.	 Disagree – EDITED. The OIG used $950 in Pell as aid disbursed while the
                         servicer calculated $317 as aid disbursed. The servicer requested a negative
                         disbursement of -$633 to reconcile the eligible aid amount for the term.
                         Therefore, the correct eligible amount was utilized in the calculation. The
                         student was enrolled less than half time and was eligible for a less than half
                         time Pell disbursement. Please refer to Exhibit 1.7.

                     8.	 Disagree – EDITED. The OIG did not include the federal share of FSEOG
                         when processing the refund calculation. The student was originally paid a
                         single disbursement as the amount was less than $501. Upon withdrawal in
                         the second term, the servicer calculates one half of the FSEOG disbursement
                         as aid disbursed. This resulted in an additional $74.47 that the school was
                         required to send back to the Department of Ed as unearned funds. Please
                         refer to Exhibit 1.8.

                     9.	 Disagree – EDITED It appears that the OIG counted Pell grant twice for the
                         payment period and used $2363 in Pell when calculating the total amount of
                         aid disbursed. The servicer utilized $1013 in Pell grant, student loans, and
                         50% of the FSEOG allocation as aid disbursed. The servicer requested a
                         negative disbursement of -$337 to reconcile the eligible aid amount for the
                         term from a f/t to ¾ time disbursement. The student ledger reflects the
                         correct disbursements. Please refer to Exhibit 1.9.

                     10. Disagree – EDITED 	The OIG did not include any Pell grant as aid that could
                         have been disbursed for the payment period. The servicer calculation reflects
                         a scheduled amount of $800 in Pell grant that was initially awarded to the
                         student. Please refer to Exhibit 1.10.

                     11. Disagree – EDITED. 	The OIG did not include $300 of institutional charges
                         when calculating the school responsibility of unearned funds. The ledger
                         card reflects $2100 total which is the amount used by the servicer in the
                         refund calculation. As mentioned in the Audit Results, the servicer and OIG
                         calculations do agree in the amount of unearned funds, so this merely
                         explains the difference between the two calculations. Please refer to Exhibit
                         1.11.

                     12. Neutral – EDITED 	The original tuition amount for the student was
                         incorrectly billed which caused the refund calculation to attribute a higher
                         amount of unearned liability to the school rather than the student. The
                         College refunded the entire amount of unearned funds for the student and
                         made the correct tuition adjustment. As mentioned in the Audit Results, the
                         servicer and OIG calculations do agree in the amount of unearned funds,




                                                                                             Page 3 of 6
                                                                                                  Attachment
      Eagle Gate College                                                    Draft Audit Report ED-OIG A06H0010


                                  so this merely explains the difference between the two calculations. Please
                                  refer to Exhibit 1.12.

              b.	 Corrective Actions

                       i.	 The third-party servicer has provided the school with the knowledge that a senior
                           analyst has been assigned to the College to ensure the accuracy of all refund
                           calculations.

                      ii.	 The College examines the results of all refund calculations upon receipt in order to
                           verify the accuracy of the calculation.

                     iii.	 The College will return excess funds owed to the Department and to FFEL Program
                           lenders as prescribed by the OIG refund calculations.

              c.	 Comments in regards to OIG Recommendations

                       i.	 The College will return excess funds owed to the Department and to FFEL Program
                           lenders as prescribed by the OIG refund calculations and the Final Audit Report.

                      ii.	 The College did not utilize a third-party servicer prior to July 1, 2005. The College
                           believes it would cause an undue burden to recalculate all Return of Title IV
                           calculations from July 1, 2003. The recommendation to recalculate all refund
                           calculations may be reconsidered if the OIG determines the responses provided in
                           Section I(a)(i) verify the accuracy of the majority of all refund calculations.

                     iii.	 As noted in the corrective actions above, the College has strengthened its policies and
                           procedures and will review all refund calculations for accuracy in order to exercise
                           the appropriate oversight over the functions performed by its servicer.


II.       Finding No. 2 – Untimely Returns of Title IV Funds

              a.	 Comments in regards to Finding No. 2.

                       i.	 The College concurs with the schedule of findings with the exception of three
                           students as listed below.

                                  1.	 Agree – EDITED. Pell refund posted in GAPS: 35 days late. FFELP
                                      refund transferred from bank account: 14 days late.

                                  2.	 Agree – EDITED. Pell and FSEOG refunds posted in GAPS: 13 days
                                      late. FFELP refund transferred from bank account: 8 days late.

                                  3.	 Agree – EDITED. Pell refund posted in GAPS: 19 days late.

                                  4.	 Disagree – EDITED. The OIG noted that no supporting documentation
                                      was provided for the unsubsidized loan refund. This student was
                                      dropped as an unofficial withdrawal on 4/7/06 and reinstated to active
                                      status on 4/17/06. The student attended the last week of class even



                                                                                                       Page 4 of 6
                                                                                           Attachment
Eagle Gate College                                                    Draft Audit Report ED-OIG A06H0010


                                 though a refund calculation was performed by the servicer. The College
                                 did not utilize the refund calculation. No tuition adjustments were made
                                 to the ledger card and no Title IV funds were returned. Please refer to
                                 Exhibit 2.4.

                            5.	 Disagree – EDITED. The OIG noted that no supporting documentation
                                was provided for the unsubsidized loan refund. The College provided
                                documentation showing the refunds occurred on 1/11/06. The College
                                returned both the unearned funds from the refund calculation and the
                                student’s credit balance. The unsubsidized refund was for $2620.44 in
                                excess of the $1293.01 required. The refund was 7 days early and is not
                                a late refund. Please refer to Exhibit 2.5.

                            6.	 Agree – EDITED. FFELP refunds transferred from bank account: 16
                                days late.

                            7.	 Agree – EDITED. FFELP refund transferred from bank account: 7 days
                                late.

                            8.	 Disagree – EDITED. The OIG noted that no supporting documentation
                                was provided for the subsidized loan refund. The College provided
                                documentation showing the refunds occurred on 6/20/06. The College
                                returned both the unearned funds from the refund calculation and the
                                student’s credit balance. The subsidized refund was for $2000.31 in
                                excess of the $636.32 required. The refund was 16 days early and is not
                                a late refund. Please refer to Exhibit 2.8.

                            9.	 Agree – EDITED. FFELP refund transferred from bank account: 2 days
                                late.

        b.	 Corrective Actions

                 i.	 In 2006, the College implemented a tracking report which is maintained by the
                     Corporate Business Office. The report allows the fiscal officers to maintain oversight
                     of both the Financial Aid Department and the activities of the third-party servicer.

                ii.	 The College is experiencing normal timeframes and is confident in the interaction
                     with its third-party servicer. All refunds are returned in a timely manner in
                     accordance with 34 CFR 668.22(j).

               iii.	 The College disclosed this finding to the OIG upon engagement at the entrance
                     conference. The College previously self-reported this deficiency to Case
                     Management upon discovery and actively worked towards resolution with the
                     Department of Ed. The College was previously required by Case Management to
                     review 100% of the unearned refunds for the 2005 calendar year and already
                     submitted an irrevocable letter of credit. The Corrective Action Plan implemented as
                     a result of the 2005 audit period has been in place now for nearly 18 months.




                                                                                                Page 5 of 6
                                                                                           Attachment
Eagle Gate College                                                    Draft Audit Report ED-OIG A06H0010


        c.	 Comments in regards to OIG Recommendations

                 i.	 The College made the conversion to a third-party servicer in the wake of Hurricane
                     Katrina and also experienced unfamiliar changes in internal procedures in adapting to
                     this conversion. The College believes the errors made are attributed to an isolated
                     period and that it would cause an undue burden to identify all returns made to
                     students from July 1, 2003 to present.

                ii.	 The 14 late refunds cited in the sample reviewed by the OIG were 2 to 34 days late.
                     There were no instances where the school failed to make any necessary refunds,
                     although they were delayed beyond 30 days. The imputed interest and special
                     allowance costs were previously deemed by the Case Management team to be
                     minimal.

               iii.	 In the subsequent audit period, the independent public accountant report confirmed
                     that the College is in compliance for the 2006 calendar year. If there are no repeat
                     findings for the 2007 calendar year, the College will work with the Department of Ed
                     to remove the letter of credit upon resolution. Please refer to Exhibit 2(c)(iii).

III.    Conclusion

            a.	 The results of this audit centered on the Return of Title IV Funds. Prior to the audit
                proceedings, the College was already engaged in resolution with the Department of
                Education. It is noted that the other purposes of the audit including incentive
                compensation, institutional and student eligibility, and disbursements did not report any
                instances of non-compliance.




                                                                                                Page 6 of 6
